CASE NO.

IN THE SUPREME COURT OF THE UNITED STATES
OCTOBER TERM 2020
ANTONIO DEWAYNE ADAMS,
Petitioner,
V.

UNITED STATES OF AMERICA,
Respondent.

MOTION FOR LEAVE TO PROCEED IN FORMA PAUPEMS
Antonio Dewayne Adams, the petitioner, by and through his attorney who was
previously appointed under the Criminal Justice Act by the United States Court of
Appeals for the Tenth Circuit, moves this Court for an order allowing petitioner to
proceed in forma pauperis on his petition for writ of certiorari. Pursuant to Rule 39.1

of this Court and 18 U.S.C. ยง 3006A(d)(7), petitioner is not required to submit the
affidavit described in 28 U.S.C. ยง 1915(a) and prescribed in Form 4 of the Federal
Rules of Appellate Procedure.

Respectfully submitted,

L 'yx
WILLIAM 'P/EARLEY
ASSISTANT^DERAL PUBLIC DEFENDER
SUITE 109, 215 DEAN A. McGEE AVENUE

OKLAHOMA CITY, OKLAHOMA 73102
(405) 609-5930
COUNSEL FOR PETITIONER
ANTONIO DEWAYNE ADAMS

CERTIFICATE OF SERVICE
I hereby certify on this 16th day of July, 2021, a true and correct copy of the
above and foregoing Motion to Proceed In Forma Pauperis was mailed to: Ms.

Elizabeth Prelogar, Acting Solicitor General, Department of Justice, 950
Pennsylvania Avenue, NW, Washington, D.C. 20530-0001; Mary E. Walters,

Counsel for Respondent, Office of the United States Attorney, Western District of
Oklahoma, 210 West Park Avenue, Suite 400, Oklahoma City, OK 73102; and,
Robert J. Troester, Acting United States Attorney, Western District of Oklahoma,
210 Park Avenue, Suite 400, Oklahoma City, Oklahoma 73102.

WILLIAM P. E

